TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Effectiveness of Access Controls Over
                      System Administrator User Accounts
                               Can Be Improved



                                      September 19, 2007

                              Reference Number: 2007-20-161




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 19, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Effectiveness of Access Controls Over System
                             Administrator User Accounts Can Be Improved (Audit # 200620032)

 This report presents the results of our review of the effectiveness of access controls over system
 administrator user accounts on Internal Revenue Service (IRS) computers. This review was
 included in the Treasury Inspector General for Tax Administration Fiscal Year 2006 Annual
 Audit Plan and was part of the Information Systems Programs unit’s statutory requirements to
 annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 To perform their job responsibilities, system administrators must be given total control over
 computer systems. Due to the sensitive nature of the system administrator position, the IRS must
 have proper controls in place to ensure only appropriate employees have administrator rights and
 privileges, administrator user accounts are reviewed annually for continued business need, their
 user accounts are protected with strong passwords, and their actions on computer systems are
 monitored for questionable activities. However, administrator user accounts were not always
 authorized and maintained properly, and administrator activities were not consistently reviewed
 and documented. Weak controls over user accounts could allow unauthorized individuals to gain
 access to these accounts, which could lead to unauthorized disclosure of taxpayer data and
 disruptions of service affecting work productivity and revenue collection.

 Synopsis
 The IRS has over 260 computer system applications to process tax records for
 130 million taxpayers and to support and assist its employees in administering the nation’s tax
 system. To properly carry out their duties and protect data in systems considered sensitive,
                     Effectiveness of Access Controls Over System Administrator
                                   User Accounts Can Be Improved



system administrators are normally granted full control over computer systems, in effect
providing them unrestricted access and authority over the systems.
While the IRS has established appropriate procedures for authorizing and maintaining
administrator user accounts as well as procedures to review their user account activities for
improprieties, we identified the following problems. These weaknesses occurred because
managers and system administrators did not adhere to procedures.
First, the IRS is not approving and maintaining proper documentation for establishing
administrator user accounts. We could not find authorization and approval documentation for
31 (5 percent) of 607 user accounts for the 5 applications we reviewed. IRS managers informed
us that paper authorization forms were never entered into the IRS computer system used to track
user accounts for all IRS applications and the paper forms have since been destroyed. Because
no proof exists that these active user accounts were authorized, we have no assurance these
accounts are legitimate, which increases the IRS’ vulnerability to unauthorized access and
fraudulent activities.
Second, the IRS had unnecessary administrator user accounts. Seventy-nine (13 percent) of
607 active user accounts were not needed because the employees no longer had a business need
to administer their respective computer systems. To address account review requirements, the
IRS created automated computer programs (scripts) to identify user accounts with inactivity and
to disable and remove those accounts meeting this criterion. Because managers and
administrators were relying on these scripts, they were not reviewing accounts or reports on
inactivity to identify potential accounts that were no longer needed. However, we identified
programming errors in the scripts that caused them to not properly identify all accounts with
inactivity.
Third, weak passwords on user accounts existed on all five applications we reviewed because
systemic password mechanisms did not adhere to required IRS password standards. The
applications were running on an outdated operating system that would allow for the use of
passwords that met standards but would not reject those passwords that did not meet standards.
As a result, managers and administrators may not be voluntarily complying with password
standards.
Finally, audit trails1 are not being reviewed for four of the five applications we reviewed. While
the IRS was capturing every key stroke from administrator user accounts and sending the data
offsite for backup purposes for three of the four applications, it was not conducting regular
reviews of the audit trails. Capacity and performance problems have plagued the IRS’
implementation of an audit trail solution for its Unix-based servers. As a result, the IRS allowed


1
 An audit trail or audit log is a chronological sequence of audit records, each of which contains evidence directly
pertaining to and resulting from the execution of a business process or system function.
                                                                                                                      2
                  Effectiveness of Access Controls Over System Administrator
                                User Accounts Can Be Improved



the user license to expire in September 2006, and the audit trail solution product is no longer
being used.
The existence of active administrator user accounts with weak passwords for employees who no
longer have a business need poses an unnecessary risk for unauthorized disclosure of taxpayer
data and disruption of computer operations. Because of the trust relationship among computers
on the network, inadequate access controls over these user accounts could allow hackers and
disgruntled employees to have access to other computers on the network. In addition, when
audit trails are not being reviewed, the IRS may not be detecting improper administrator
activities on computer system applications.

Recommendations
We recommended the Chief Information Officer ensure managers identify system administrator
user accounts on all applications that do not have proper authorization documentation, assess
whether the accounts are still needed, and establish appropriate authorization documentation for
those accounts; test the automated computer programs (scripts) used to deactivate and/or delete
administrator user accounts with periods of inactivity; and reinforce the need for managers of
system administrators to be cognizant of the applications their employees can access and limit
those access rights to only those applications needed to carry out their responsibilities. The
Chief Information Officer should also ensure the deployment of the host-based intrusion
detection software continues to ensure audit trail reviews over administrator user accounts on
Tier 2 Unix-based servers.

Response
The Chief Information Officer agreed with our recommendations. A process will be
implemented to review system administrator user accounts on all systems at least annually to
ensure only those system administrator user accounts with a continued business need exist on
IRS systems, the feature of the operating systems will be implemented to identify and delete all
system administrator user accounts with no activity for 45 days, and a notice will be sent to all
managers of system administrators to reinforce the need to be aware of the applications their
system administrators can access and to limit those access rights to only those applications
needed to carry out their responsibilities. In addition, Host-based Intrusion Detection Sensor
agents will be deployed on Tier 2 Unix-based servers. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.

                                                                                                    3
                        Effectiveness of Access Controls Over System Administrator
                                      User Accounts Can Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          System Administrator User Accounts Were Not Always
          Authorized and Maintained Properly............................................................Page 3
                    Recommendations 1 through 3:...........................................Page 7

          Audit Trails Are Not Consistently Reviewed and Documented...................Page 8
                    Recommendation 4:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Description of Internal Revenue Service
          Applications Selected for Review.................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 15
          Effectiveness of Access Controls Over System Administrator
                        User Accounts Can Be Improved




                        Abbreviations

AIMS              Audit Information Management System
ALS               Automated Lien System
ASFR              Automated Substitute for Return System
ELS               Electronic Levy System
eTrust®           eTrust® Access Control and Audit
ExFIRS            Excise Files Information Retrieval System
IRS               Internal Revenue Service
OL5081            On-Line Form 5081
                      Effectiveness of Access Controls Over System Administrator
                                    User Accounts Can Be Improved




                                            Background

The Internal Revenue Service (IRS) has over 260 computer system applications to process tax
records for 130 million taxpayers and to support and assist its employees in administering the
nation’s tax system. The data in these systems are considered sensitive and require protection
from unauthorized use, modification, disclosure, and destruction. The importance of protecting
these data was illustrated with passage of the Taxpayer Browsing Protection Act of 1997.1 This
Act makes the willful unauthorized access and inspection of taxpayer records a crime; it applies
to IRS employees to ensure they do not abuse their authority on accessing taxpayer records.
To ensure computer systems are operating as intended and are secure, the IRS has designated
system administrators (also referred to as administrators) as the employees responsible for
maintaining computer systems. Maintenance duties
include monitoring system performance, responding         System administrators are normally
to system outages or problems, adjusting settings and      granted full control over computer
configurations for security and operational purposes,      systems, in effect providing them
installing system and security patches, and installing     unrestricted  access and authority
                                                                   over the systems.
peripheral devices. To properly carry out these
duties, administrators must be given total control
over computer systems, in effect providing them
unrestricted access and authority over the systems. Due to the sensitive nature of having such
capabilities, the IRS must have proper controls in place to ensure only appropriate employees
have administrator rights and privileges and these employees do not abuse their authority.
We evaluated the IRS’ controls over administrator accounts on the following five computer
applications (systems) we judgmentally selected for our review. Appendix IV provides a
description of these systems.
      •    Audit Information Management System (AIMS).
      •    Automated Lien System (ALS).
      •    Automated Substitute for Return (ASFR) System.
      •    Electronic Levy System (ELS).
      •    Excise Files Information Retrieval System (ExFIRS).
This review was performed in the Modernization and Information Technology Services
organization and the former Mission Assurance and Security Services organization in




1
    26 U.S.C.A. Sections 7213, 7213A, 7431 (West Supp. 2003).
                                                                                          Page 1
                    Effectiveness of Access Controls Over System Administrator
                                  User Accounts Can Be Improved



New Carrollton, Maryland, and the Enterprise Computing Centers2 in Detroit, Michigan, and
Memphis, Tennessee, during the period January 2007 through May 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 2
                    Effectiveness of Access Controls Over System Administrator
                                  User Accounts Can Be Improved




                                     Results of Review

System Administrator User Accounts Were Not Always Authorized
and Maintained Properly
The IRS has established appropriate procedures for authorizing and maintaining administrator
user accounts. The process to establish a user account starts when an employee completes an
Information System User Registration/Change Request [On-Line Form 5081(OL5081)]3 to gain
administrator access to a particular computer system or application. When the request contains
all necessary information, the OL5081 system sends an email message to the employee’s
manager, who will need to access the OL5081 system to approve the request. Once the request
has been approved, the OL5081 system generates an email to an existing administrator over the
particular computer system or application and this designated administrator will create a new
user account for the employee. The employee is then notified that his or her user account is
active and ready for access. Annually, the OL5081 system sends an email to both the manager
and employee to recertify that the administrator’s system accesses are still appropriate and
necessary. To delete an employee who no longer has a need to access a system, the manager
initiates the user account removal process on the OL5081 system. An email is then sent to
another administrator to remove the user account.
Although the OL5081 system automates the process for creating, maintaining, and deleting user
accounts, certain actions continue to require human initiation and intervention. For example,
managers must ensure employees need access to a system before granting access and promptly
notify the administrators to remove employees from the system when access is no longer
necessary. Managers are also required to annually review the appropriateness of their
employees’ access privileges. In addition, designated administrators are responsible for adding
and removing system user accounts, including other administrator user accounts, when
authorized; maintaining an up-to-date list of authorized users; and annually generating a list of
current system users and their access profiles to provide to the appropriate managers for review.
Managers and system administrators did not adhere to system review procedures. As a result,
our review of the five applications determined:




3
  The IRS uses the Information System User Registration/Change Request (Form 5081) to request and authorize user
accounts for all systems. The OL5081 is an automated version of this Form. The OL5081 system was named after
the Form 5081; it automates some of the manual processes and provides a centralized system for all system access
authorizations.
                                                                                                        Page 3
                  Effectiveness of Access Controls Over System Administrator
                                User Accounts Can Be Improved



   •   Documentation for authorizations of user accounts could not be located.
   •   Active user accounts existed for employees who no longer had a business need.
   •   Password complexity did not meet IRS standards.

Documentation for authorization of system administrator user accounts could not
be located
Generally, the IRS is approving and maintaining proper documentation for establishing user
accounts. However, we could not find authorization and approval documentation for
31 (5 percent) of 607 user accounts for the 5 applications reviewed. IRS managers informed us
that paper Forms 5081 for those user accounts were never converted to the OL5081 system when
it was first established and the paper Forms 5081 have since been destroyed. Because no proof
exists that these active user accounts were authorized, we have no assurance these accounts are
legitimate, which increases the IRS’ vulnerability to unauthorized access and fraudulent
activities. While 5 percent may seem low and acceptable, the capabilities of these user accounts
magnify the risk because they have unlimited control over computers.
We followed up with administrator managers to determine whether these user accounts were still
needed; the managers took action to establish OL5081 records for 15 of the 31 user accounts and
deleted the remaining 16 user accounts because they were no longer needed. Because of the lack
of readily available authorization documentation, we could not determine whether these 16 user
accounts were ever truly authorized. We did determine that none of the 16 user accounts were
ever accessed.

Active system administrator user accounts existed for employees who no longer
had a business need
In the 5 applications we reviewed, 79 (13 percent) of 607 active user accounts were not needed
because the administrators no longer had a business need to administer their respective computer
systems, according to their managers. These 79 user accounts included the aforementioned
16 user accounts for which we were unable to locate authorization documentation.
In addition, for 72 of the 79 user accounts, the administrators either never logged onto the system
or had not logged onto the system in the past 90 calendar days. Figure 1 presents these numbers
by the systems reviewed.




                                                                                            Page 4
                         Effectiveness of Access Controls Over System Administrator
                                       User Accounts Can Be Improved



    Figure 1: Active System Administrator User Accounts Without a Business Need
      System    Number       Number of User      Number of User          Number of User           Number of User
      Name      of Total        Accounts        Accounts Identified    Accounts Identified      Accounts Identified
                  User       Identified With    With No Business       With No Business          With No Business
                Accounts      No Business        Need and Never       Need and Not Logged       Need and Logged On
                                  Need             Logged On              On in the Past            in the Past
                                                                        90 Calendar Days         90 Calendar Days
     AIMS          137              0                   0                       0                         0
     ALS            89              2                   0                       2                         0
     ASFR           99              4                   0                       4                         0
     ELS            92              7                   0                       5                         2
     ExFIRS        190             66                   29                      32                        5
     Totals        607             79                   29                     43                         7
    Source: Treasury Inspector General for Tax Administration analysis.

Further analysis revealed 6 of the 79 user accounts belonged to IRS contractors who no longer
work for the IRS. The contractors were first granted system access in November 2003, but
system records show the contractors had never logged onto the system. The user accounts
remained active and with the initial password assigned when the accounts were first established.
The IRS requires a user account (1) to be disabled if the user has not used the system in the past
45 calendar days and (2) to be removed if the user has not used the system in the past
90 calendar days. To address these requirements, the IRS created automated computer programs
(scripts) to identify user accounts with inactivity and to disable and remove those accounts
meeting these criteria. Because managers and administrators were relying on these scripts, they
were not reviewing accounts or reports on inactivity to identify potential accounts that were no
longer needed. However, we identified programming errors in the scripts that caused them to not
properly identify those user accounts for which the administrator had never logged onto the
account and for which linked user accounts4 existed. As a result, inactive user accounts were
not being identified and removed. Had the scripts worked properly, they would have identified
72 (91 percent) of the 79 user accounts as no longer being needed and properly disabled and
removed them.
Also, administrator managers may be unaware of whether their employees continue to have a
business need for system access as part of the OL5081 annual recertification process. As stated
above, employees’ managers are required to review the appropriateness of their employees’
access privileges and to annually recertify, along with the employee, on the OL5081 system. For
the user accounts reviewed, we contacted the employees’ managers of record listed on the
OL5081 system to confirm whether the employees continued to need access to the systems.

4
  These are switch-user accounts that allow system administrators to log on as a normal user and then switch user
rights, when necessary, giving them root status access and full system administrative control over the system.
                                                                                                              Page 5
                 Effectiveness of Access Controls Over System Administrator
                               User Accounts Can Be Improved



These managers of record could not make that determination and deferred to the managers of the
systems being reviewed. This situation illustrates the confusion over who may be in the best
position to serve as the certifying official.
The existence of active user accounts with system administrative rights for employees who no
longer have a business need poses an unnecessary risk for unauthorized access and disclosure of
taxpayer data. These types of accounts could allow hackers and disgruntled employees to have
unabated access to the computer and its data. Because computer systems within a network have
a trust relationship among other computers on the network, the risk extends to other computer
systems as well. We attempted to use system records to determine whether any of the 79 user
accounts had been potentially misused. However, the records were not maintained in a format
that could be used to identify improper activity.

Password complexity did not meet standards
Weak passwords existed on system administrator user accounts on all five applications we
reviewed. On one application, the passwords were not restricted to an eight-character minimum.
All five applications did not enforce the following password requirements:
   •   Passwords must contain alpha and numeric characters and be case sensitive.
   •   Password history must capture the last 24 passwords used to prevent reuse.
   •   Passwords for user accounts must change at least every 60 calendar days.
The applications were running on an outdated operating system that would allow for the use of
passwords that met standards but would not reject those passwords that did not meet standards.
As a result, managers and administrators may not be voluntarily complying with password
standards. This systemic weakness could allow a simple password such as “password” to be
used. Due to the sensitivity of passwords, we did not attempt to reveal or obtain the actual
passwords used by the administrators.
Local management informed us that the IRS is in the process of upgrading its servers, which will
be capable of enforcing the password requirements. We confirmed that one of the applications
we reviewed was upgraded, as of June 2007, and all password requirements were being enforced.
However, we did not receive a definitive timetable for upgrading the rest of the applications.
Because the IRS is taking the necessary actions to address this security weakness, we made no
formal recommendations specific to this issue. However, we encourage administrator managers
to emphasize the password standards and to stress the potential vulnerabilities of using weak
passwords until servers have been upgraded to allow IRS password standards to be enforced.
Weak passwords over administrator user accounts leave the IRS vulnerable to hacker attacks.
Disgruntled employees can employ password-hacking techniques to take over user accounts that,
if successful, would give them complete access to the computer system and its resources, such as
taxpayer data and password files. This scenario could lead to potential disclosure of taxpayer
data.

                                                                                         Page 6
                  Effectiveness of Access Controls Over System Administrator
                                User Accounts Can Be Improved



Recommendations
To improve access controls over system administrator user accounts, we recommend the Chief
Information Officer ensure managers:
Recommendation 1: Identify and reconcile system administrator user accounts on all
systems to the OL5081 system. For those accounts not on the OL5081 system, the system owner
and the system administrator’s manager should determine whether the employee continues to
have a business need for access. If he or she no longer has a business need, the user account
should be deleted. If he or she continues to have a business need, the manager should initiate the
process of creating an OL5081 record for the user account.
       Management’s Response: The Chief Information Officer agreed with the
       recommendation and will implement a process to review and compare system
       administrator user accounts on all systems to the OL5081 system at least annually. This
       process will ensure system administrator user accounts with a continued business need
       exist on IRS systems.
Recommendation 2: Test the automated computer programs (scripts) used to identify and
disable system administrator user accounts with 45 calendar days of inactivity, delete
administrator user accounts with 90 calendar days of inactivity, and periodically validate the
results to ensure the programs are working as intended.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and will implement the feature of the operating systems to identify and
       delete system administrator user accounts with 45 days of inactivity. An additional script
       will be added on all Unix systems to ensure system administrator user accounts will be
       removed after 90 days of inactivity. Quarterly, a review of systems will be completed to
       ensure these automated processes are working as intended.
Recommendation 3: Reinforce the need for system administrator managers to be cognizant
of the applications their employees can access and limit those access rights to only those
applications needed to carry out their responsibilities. Managers should consider long periods of
inactivity when determining whether to recertify access rights on the OL5081 system.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and will issue to all managers of system administrators a notice to
       reinforce the need to be aware of the applications their system administrators can access
       and to limit those access rights to only those applications needed to carry out their
       responsibilities. The notice will also remind managers that long periods of inactivity
       should be considered in determining access needs when recertifying on the OL5081
       system.



                                                                                           Page 7
                     Effectiveness of Access Controls Over System Administrator
                                   User Accounts Can Be Improved



Audit Trails Are Not Consistently Reviewed and Documented
Audit trails5 are not being reviewed for four of the five applications. All four applications are
running on Tier 2 Unix-based servers using an audit software product called eTrust® Access
Control and Audit (eTrust®). For one of the four applications, the IRS is not capturing or
reviewing any audit trail information. For the other three applications, the IRS is capturing every
key stroke and sending it offsite for backup. However, the IRS is not generating audit trail
reports and conducting regular reviews of the audit trails. A security specialist stated that audit
trail analysis may occur if a specific request is made, although these requests are infrequent.
Such analysis is difficult and would involve manually scrolling through the audit trail files and
trying to identify specific activity. If any questionable activity is identified, the security
specialist would report it to the Computer Security Incident Response Center.
We requested audit trail information for the 79 administrator user accounts that were no longer
needed, to determine whether questionable activities might have occurred for those accounts.
While the security specialists over the systems reviewed had initially agreed to provide us with
the information, they later informed us that the process to access the information from the
backup system and to convert the raw data into a useable format was very time consuming,
required too much computer processing resources, and would take personnel from their normal
duties to complete the task. Because of these limitations, we question the practical ability to
create reviewable audit trail information when needed.
Department of the Treasury procedures require that audit trails be sufficient in detail to facilitate
the reconstruction of events if unauthorized activity or a malfunction occurs or is suspected.
These procedures also state that designated personnel must review audit trails at least weekly for
systems that contain sensitive information. IRS procedures require that, at a minimum, audit
trails include sufficient information to establish what events occurred, when the events occurred,
and who (or what) caused them.
Due to the capacity and performance problems that have plagued the IRS’ implementation of
eTrust® for auditing of its Unix-based servers, the IRS has had to replace the product. At one
time, the eTrust® solution was used to provide audit trail analysis but never fully delivered in its
reports or analysis. For example, there were problems with the eTrust® reports. Some were
simple formatting and sorting errors, but others were more significant, such as incorrect event
status and reporting of erroneous events that were not requested. Also, eTrust® could collect
audit logs only in text and not in the binary format necessary to run specific audit modules.
Because of these problems, the IRS allowed the user license for eTrust® to expire in September
2006, and the product is no longer being used. A discussion with the Director, Information
Technology Security, determined that, in late May 2007, the IRS planned to begin an enterprise


5
 An audit trail or audit log is a chronological sequence of audit records, each of which contains evidence directly
pertaining to and resulting from the execution of a business process or system function.
                                                                                                              Page 8
                  Effectiveness of Access Controls Over System Administrator
                                User Accounts Can Be Improved



deployment of host-based intrusion detection software to monitor alerts and log files on servers
for suspicious activities and to report in near real-time to the Computer Security Incident
Response Center and Information Technology Security Field Specialists.
Even the best controls designed to prevent improper computer activity can be circumvented with
the proper expertise. Disgruntled administrators and contractors who already have administrator
access rights to a system may attempt to circumvent IRS controls to gain access to sensitive
information or to vandalize computer data and processing. To help minimize these risks, routine
generation and review of audit trails can assist in detecting improper activities.

Recommendation
Recommendation 4: The Chief Information Officer should ensure the deployment of the
host-based intrusion detection software continues to ensure audit trail reviews over system
administrator user accounts on Tier 2 Unix-based servers.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and will deploy the Host-based Intrusion Detection Sensor agents on
       Tier 2 Unix-based servers. In addition, the Cybersecurity organization, specifically
       Information Technology Security function field specialists, will be responsible for
       monitoring and reviewing event logs and alerting the Computer Security Incident
       Response Center of unusual or suspicious activity.




                                                                                           Page 9
                    Effectiveness of Access Controls Over System Administrator
                                  User Accounts Can Be Improved



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of access controls over
system administrator user accounts on IRS computers. To accomplish our objective, we:
I.      Determined whether system administrator user accounts had been properly approved by
        reviewing the OL5081 system1 for all 607 administrator user accounts on 5 selected
        applications (systems).2 From a population of 59 major applications, we judgmentally
        selected the 5 applications based on the risk of the application and prior Treasury
        Inspector General for Tax Administration audit coverage. Specifically, we:
        A. Identified any other method (besides the OL5081 system) used for authorizing and
           approving the creation of administrator user accounts on systems.
        B. Compared each user on each application’s list of administrators to the OL5081
           system records. For any accounts not on the OL5081 system, we determined whether
           paper records existed.
        C. Reviewed Forms 5081 for proper approvals.
        D. Where appropriate, consulted with administrators and managers to determine why no
           Form 5081 existed, why the Form 5081 did not contain proper approval, how long the
           administrator had access to the computer system without authorization, and whether
           any of these conditions could have been resolved by the proposals from the OL5081
           system projects that are currently in process.
II.     Determined whether unnecessary system administrator user accounts, such as accounts
        for nonadministrators or separated administrators, exist. Specifically, we:
        A. Compared all administrator user accounts to the IRS timekeeping system listing
           employee series, function, and status.
        B. Identified potential nonadministrators and separated employees by comparing
           administrator lists to the timekeeping system, presenting and confirming the lists with
           local management, and, if applicable, identifying why administrator user accounts
           that were no longer needed had not been disabled or closed.

1
  The IRS uses the Information System User Registration/Change Request (Form 5081) to request and authorize user
accounts for all systems. The OL5081 is an automated version of this Form. The OL5081 system was named after
the Form 5081; it automates some of the manual processes and provides a centralized system for all system access
authorizations.
2
  Appendix IV provides a description of these systems.
                                                                                                       Page 10
                 Effectiveness of Access Controls Over System Administrator
                               User Accounts Can Be Improved



       C. Identified any administrator user account(s) that had not been used for 60 calendar
          days and consulted with local management to determine whether there was any
          justification for the account(s).
       D. Determined whether administrator user accounts were regularly reviewed
          independently to identify inactive accounts and accounts no longer needed.
III.   Determined whether shared, generic, duplicate, or default accounts existed. Specifically,
       we reviewed system administrator user accounts for each application to identify accounts
       with possible shared, generic, duplicate, or default user account names and consulted
       with the administrators to determine why these types of accounts existed on the systems
       and whether reasonable justification existed for the accounts.
IV.    Determined whether applications contained strong password controls on system
       administrator user accounts. Specifically, we reviewed password settings files to
       determine whether settings were in compliance with IRS password policies and, if they
       were not, consulted with the administrators and managers to determine why the password
       controls had not been updated to reflect basic requirements.
V.     Determined whether system administrator activities were regularly reviewed
       independently for suspicious activities, computer configuration changes, and other
       potential security issues. We consulted with the independent reviewer to determine
       whether issues had been identified in the past, what the process was for handling those
       issues, and what the cause was of each issue.
VI.    Determined the causes for any conditions identified.




                                                                                         Page 11
                 Effectiveness of Access Controls Over System Administrator
                               User Accounts Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Audit Manager
Louis Lee, Lead Auditor
Bret Hunter, Senior Auditor
Jody Kitazono, Senior Auditor
Abraham Millado, Senior Auditor




                                                                                     Page 12
                Effectiveness of Access Controls Over System Administrator
                              User Accounts Can Be Improved



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Information Officer OS:CIO




                                                                       Page 13
                  Effectiveness of Access Controls Over System Administrator
                                User Accounts Can Be Improved



                                                                                   Appendix IV

            Description of Internal Revenue Service
               Applications Selected for Review

We selected the following five IRS applications for our review of system administrator user
accounts:
AIMS – This System provides the inventory of and activity controls over active Examination
Division cases for input on status changes, adjustments, and case-closing actions.
ALS – This System supports revenue officers in field offices by tracking lien assignments and
lien due dates. It provides the abilities to print lien documents and to support management
information reporting on liens, generates Notices of Federal Tax Liens and Releases of Liens,
and maintains a database of all outstanding items.
ASFR – This System supports the automated selection of investigations on those taxpayers who
have substantial reported income and yet refuse or neglect to file tax returns for a given year. It
tracks all cases, issues required notices and results, and prepares a tax calculation summary that
is mailed to the taxpayer.
ELS – This System enables tax examiners and clerks to review levies prior to printing and
requires only levies with errors or those flagged from the Levy Review Register to be reviewed.
The ELS eliminates time and paper costs associated with a manual review and the retyping of
erroneous levies. The System also provides management with a variety of reports for volume,
error, and trend analyses.
ExFIRS – This System provides management information and support processes to assess the
health and direction of the Excise Tax Program. Multiple applications support Excise Tax
Program business processes and internal/external stakeholder activities. There are approximately
550 IRS end users of the applications, in addition to State Excise Tax Agencies and the motor
fuel industry.




                                                                                            Page 14
    Effectiveness of Access Controls Over System Administrator
                  User Accounts Can Be Improved



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 15
Effectiveness of Access Controls Over System Administrator
              User Accounts Can Be Improved




                                                      Page 16
Effectiveness of Access Controls Over System Administrator
              User Accounts Can Be Improved




                                                      Page 17
Effectiveness of Access Controls Over System Administrator
              User Accounts Can Be Improved




                                                      Page 18
